     April 6, 2006




Financial Management

Internal Controls Related to
Department of Defense Real
Property
(D2006-072)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

ACES-RP               Automated Civil Engineers System-Real Property
AIMD                  Accounting and Information Management Division
CIP                   Construction-in-Progress
DFAS                  Defense Finance and Accounting Service
DPAS                  Defense Property Accountability System
DUSD(I&E)             Deputy Under Secretary of Defense (Installations and
                         Environment)
FMR                   Financial Management Regulation
GAFS-R                General Accounting and Finance System-Rehost
GAO                   Government Accountability Office
IFS                   Integrated Facilities System
iNFADS                Internet Navy Facilities Assets Data Store
IWIMS                 Interim Work Information Management System
NARA                  National Archives and Records Administration
NAVFAC                Naval Facilities Engineering Command
OIG                   Office of Inspector General
PP&E                  Property, Plant, and Equipment
PwC                   PricewaterhouseCoopers
RPAO                  Real Property Accountable Officer
UFC                   Unified Facilities Criteria
USACE                 United States Army Corps of Engineers
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, Vl RGlNlA 22202-4704



                                                                             April 6,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Internal Controls Related to Department of Defense Real Property
         (Report No. D-2006-072)

       We are providing this report for review and comment. We considered comments
from the Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer and
the Deputy Assistant Secretary of the Navy when preparing the final report.
        Comments from the Deputy Under Secretary of Defense (Installations and
Environment) and the Assistant Deputy Chief of Staff/Logistics, Installations and Mission
Support, U.S. Air Force were received too late to be considered in preparing the final
report. DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, if the Deputy Under Secretary and the Assistant Deputy Chief of Staff do not
submit additional comments by May 5,2006, we will consider the comments received as
the response to the final report. We request that the Commander of the U.S. Army Corps
of Engineers and the Assistant Chief of Staff for Installation Management,      U.S.
Army provide comments on Recommendation A.3. and the Assistant Secretary of the
Army (Financial Management and Comptroller) provide comments on Recommendation
A.4. by May 5,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Mr. C. Kirk Winstead at
(703) 325-3549 (DSN 221-3549). See Appendix E for the report distribution. The team
members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:




                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
                   Department of Defense Office of Inspector General
Report No. D-2006-072                                                       April 6, 2006
   (Project No. D2005-D000FH-0069.000)

                        Internal Controls Related to Department of
                                  Defense Real Property

                                         Executive Summary

Who Should Read This Report and Why? Department of Defense personnel associated with
financial management and real property management should read this report. It discusses the
internal control procedures necessary to ensure that the Services’ real property databases are
accurately and promptly updated for additions, deletions, or modifications.

Background. The audit was performed to support the requirements of Public Law 101-576, the
“Chief Financial Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-
356, the “Federal Financial Management Act of 1994.” DoD reported $99.5 billion of real
property in FY 2005 financial statements. Real property represents 21.6 percent of the DoD
$460.7 billion General Property, Plant, and Equipment line of accounting. Therefore, internal
controls related to the accuracy of real property as part of the General Property, Plant, and
Equipment line of accounting are critical to achieving accountability and financial control over
real property assets.

In 1998 the Under Secretary of Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO)
contracted with PricewaterhouseCoopers (PwC) to assist in the valuation of real property. PwC
derived a predicted value for historical cost and compared the predicted value with the real
property historical cost recorded in the Military Departments’ real property databases. To do
this, a statistical sample of assets was selected from the databases as of September 30, 1998. The
objective was to establish a baseline historical cost value as of September 30, 1998, for each
Military Department’s real property database. The historical cost values were to be sustained by
properly accounting for additions, deletions, and modifications, using adequate supporting
documentation. PwC issued a final report on May 15, 2000, which provided certain
recommendations that, when implemented, would ensure that the Military Departments could
replicate the PwC FY 1998 baseline values and properly maintain the baseline. In conjunction
with the PwC review, the DoD Office of Inspector General (OIG) and the Service audit agencies
reviewed the databases for additions, deletions, and modifications for FY 1999 and assessed the
sustainability of the baseline historical cost values for the September 30, 1998, databases. In
Report No. D-2000-172, “Accuracy of the FY 1999 Additions, Deletions, and Modifications to
the Military Departments’ Real Property Databases,” August 11, 2000, the auditors reported that
the Military Departments’ real property databases did not accurately reflect the changes made
during FY 1999 because of poor internal controls and noncompliance with applicable
regulations.

Results. We performed this audit to determine whether internal controls are in place to provide
reasonable assurance that material misstatements relating to real property will not be made on
the financial statements. Weaknesses in the control environment and control activities led to
deficiencies in the areas of human capital assets, knowledge management, and compliance with
policies and procedures related to real property management. As previously reported in Report
No. D-2000-172, real property personnel did not record transactions accurately or timely, retain
supporting documentation, perform inventories, or reconcile the construction-in-progress and
real property accounts. As a result, the Military Departments’ real property databases were
inaccurate, thus leading to a lack of internal control over transactions reported in the financial
statements. The Deputy Under Secretary of Defense (Installations and Environment)
(DUSD[I&E]) should issue guidance to Military Departments requiring that their installation-
level commanding officers adequately staff, train, and cross train real property personnel. The
DUSD(I&E) should clarify the time period to record real property acquisitions and transfers.
For supporting documentation, the DUSD(I&E) should change the Unified Facilities Criteria 1-
300-08 to require that all Military Departments use the DD Form 1354 as supporting
documentation for construction. The DUSD(I&E) and the USD(C)/CFO should require that the
Military Departments retain supporting documentation for real property in accordance with
National Archives and Records Administration, and the Secretaries should identify who should
retain the documents needed to support the DD Form 1354. In addition, the Military
Departments should ensure that the real property personnel perform inventories as required, and
DUSD(I&E) should develop policy that requires a reconciliation of the real property assets and
construction-in progress accounts. The Military Departments’ management control programs
were ineffective and did not identify material weaknesses related to the acquisition,
modifications, and deletions of real property assets (finding A). See the Finding section of this
report for the detailed recommendations.

The Air Force invalidated the 1998 PwC review of valuation and the DoD OIG review of
existence and completeness when it implemented a new real property system that did not provide
audit trails to the prior year’s data that were used to compile information for the financial
statement. As a result, the Air Force could not provide documentation of its established real
property baseline values for financial reporting and audit. The Assistant Secretary of the
Air Force (Financial Management and Comptroller) and the Air Force Deputy Chief of Staff
(Installation and Logistics) should determine which fiscal year the real property account values
shown in the financial statements can be validated and supported for existence, completeness,
and valuation and use that fiscal year as the baseline date (finding B). See the Finding section of
this report for the detailed recommendations.

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Deputy Chief Financial Officer agreed with the intent of the recommendation.
Although management did not specifically concur, the plan of action satisfies the
recommendation; therefore, the comments are responsive. The Deputy Assistant Secretary of the
Navy concurred with the audit findings, and the comments were responsive. Comments from the
Deputy Under Secretary of Defense (Installations and Environment) and the Assistant Deputy
Chief of Staff/Logistics, Installations and Mission Support, U.S. Air Force were received too late
to be considered in preparing the final report. Therefore, if the Deputy Under Secretary and the
Assistant Deputy Chief of Staff do not submit additional comments by May 5, 2006, we will
consider the comments received as the response to the final report.
We request that the Commander of the U.S. Army Corps of Engineers; the Assistant Chief of
Staff for Installation Management, U.S. Army; and the Assistant Secretary of the Army
(Financial Management and Comptroller) provide comments on this report by May 5, 2006. See
the Finding section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                                ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Managers’ Internal Control Program                                             3

Findings
     A. Military Departments’ Real Property Internal Controls                  5
     B. Air Force Real Property Baseline                                      19

Appendixes
     A. Scope and Methodology                                                 23
     B. Prior Coverage                                                        25
     C. Assessment of Implementation of Specific PricewaterhouseCoopers
          Recommendations                                                     27
     D. Synopsis of Real Property Systems                                     29
     E. Report Distribution                                                   35

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               37
     The Assistant Secretary of the Navy (Financial Management and
        Comptroller)                                                          38
Background
    The audit was performed to support the requirements of Public Law 101-576, the “Chief
    Financial Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-
    356, the “Federal Financial Management Act of 1994.” DoD has approximately
    571,900 real property records for buildings, structures, and facilities owned or used,
    located on 30 million acres of land at 3,740 sites throughout the world. DoD reported
    $99.5 billion of real property in the FY 2005 financial statements. Real property
    represents 21.6 percent of the DoD $460.7 billion General Property, Plant, and
    Equipment (PP&E) line of accounting. Therefore, internal controls to accurately report
    the real property portion of the General PP&E line of accounting are critical to
    achieving accountability and financial control over real property assets.

    The Real Property Baseline. In 1998 the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer (USD[C]/CFO) contracted with
    PricewaterhouseCoopers (PwC) to assist in the valuation of real property. PwC derived
    a predicted value for historical cost and compared the predicted value with the real
    property historical cost recorded in the Military Departments’ real property databases.
    To do this, a statistical sample of assets was selected from the databases as of
    September 30, 1998. The objective was to establish a baseline historical cost value as
    of September 30, 1998, for each Military Department’s real property database. The
    historical cost values were to be sustained by properly accounting for additions,
    deletions, and modifications, using adequate supporting documentation.

    Internal Controls Over Real Property Assets. The PwC issued a report on the Real
    Property Asset Valuation Project dated May 15, 2000, that recommends improving
    internal controls to ensure that accurate and complete data will be retained for all future
    real property transactions. PwC also reported that none of the Military Departments
    maintained a complete record of the actual business rules used or the output files
    generated to derive the real property financial statement amounts. PwC determined that
    reporting entities’ misinterpretations of the business rules and errors in applying the
    rules resulted in inaccurate real property balances reported on the FY 1999 financial
    statements. PwC recommended the following for the Military Departments.
           1. Business rules used to derive real property related financial statement
           amounts need to be applied correctly and consistently, and an audit trail
           supporting the financial statement amounts must be maintained.

           2. The impact of changes to the business rules in FY 1999 on the population
           tested in the accuracy test phase should be further evaluated.

           3. A detailed real property handbook and training are needed to ensure that
           Office of the Secretary of Defense (OSD) policies are interpreted correctly and
           consistently applied. Communication needs to be enhanced.

           4. Real property assets and related costs contained in the Working Capital
           Fund real property systems should agree with those contained in the “primary”
           systems of the Military Departments, the variety of systems and processes
           used by the Working Capital Funds should be studied and condensed to the
           extent possible.



                                                 1
       5. Current systems for real property reporting should include all necessary
       functional requirements.

       6. Key controls associated with the real property asset life cycle should be
       identified and tested. Additional controls should be defined and implemented
       where needed.

The DoD Office of Inspector General (OIG) and USD(C/CFO) discussed the PwC
recommendations from the Real Property Asset Valuation Project with the Military
Departments through real property working groups established within each of the
Departments. Appendix C provides our assessment of the Military Departments’
implementation of specific PwC recommendations. In conjunction with the PwC
review, the DoD OIG and the Service audit agencies reviewed the databases for
additions, deletions, and modifications for FY 1999 and assessed the sustainability of
the baseline historical cost values for the September 30, 1998, databases. In Report No,
D-2000-172, “Accuracy of the FY 1999 Additions, Deletions, and Modifications to the
Military Departments’ Real Property Databases,” August 11, 2000, the auditors
reported that the Military Departments’ real property databases did not accurately
reflect the changes made during FY 1999 because of poor internal controls and
noncompliance with applicable regulations.

Current Real Property Databases. The Army and the Navy were in the process of
replacing or enhancing the capabilities of their real property databases. A brief
description of the three real property systems follows. More detailed information is
provided in Appendix D.

        Army. The Army’s legacy system, Integrated Facilities System (IFS), a real
property management inventory system, is being upgraded to a Web-based system that
will interface with the Defense Corporate Database for real property financial reporting.
The Defense Corporate Database is a central database that will allow accounting and
finance information to be available simultaneously to many users and applications. The
Army Audit Agency is monitoring the upgrade to ensure that audit trails will be
established and that accurate financial accounting will document real property from
acquisition to 10 years after disposal.

        Navy. The Navy transitioned its legacy system to a Web-based system in
March 2001. The new system provides Naval Facilities Engineering Command
(NAVFAC), which is the Navy construction agent, and Navy and Marine Corps
operational commands the capability to track and report real property financial and
inventory information. Unfortunately, the Navy system, internet Navy Facilities Assets
Data Store (iNFADS), is a subsidiary ledger that does not interface with the Navy or
Defense financial general ledger systems. Thus, iNFADS relies on manual journal
entries, leaving a gap in the automated audit trail. Although the Navy does not have an
immediate plan to fill that gap, it does have long-range plans that will provide that
interface.

        Air Force. Limitations of the former real property reporting system, Interim
Work Information Management System (IWIMS), led the Air Force to develop a new
real property reporting database in 1999, the Automated Civil Engineer System-Real
Property (ACES-RP). The data in IWIMS was migrated into ACES-RP. The ACES-
RP is now used to both track and report real property financial data, and it interfaces


                                            2
    with the General Accounting and Finance System-Rehost (GAFS-R). The loss of audit
    trails relating to the Air Force system is discussed fully in finding B of this report.

    Life Cycle of Real Property. The life cycle of constructed real property begins with
    construction-in-progress (CIP), which is a component of the DoD real property portion
    of the General PP&E account. Costs incurred during construction of real property
    assets are recorded as CIP until the real property assets are placed in service. Unified
    Facilities Criteria (UFC) 1-300-08 provides comprehensive guidance on the
    management and transfer of real property assets from the construction agent to the real
    property accountable officer (RPAO). The construction agents, U.S. Army Corps of
    Engineers (USACE) and NAVFAC, manage the military construction as CIP until the
    Military Departments at the field-level commands take ownership. The UFC explains
    how the construction agent is to use the DD Form 1354, “Transfer and Acceptance of
    Military Real Property,” to maintain the CIP account, close out the capitalized property
    costs from the CIP account upon completion, and then provide the RPAO with a
    DD Form 1354 with all relevant data 30 days prior to the final inspection. However,
    the UFC is vague about the next step; it states, “The RPAO is then required to capitalize
    the asset within a short time afterward and both parties must ensure that the CIP account
    is reduced by the same amount.” This control is designed to ensure that the Military
    Departments real property assets are not doubled-counted or omitted.


Objectives
    Our overall audit objective was to determine whether internal controls related to real
    property are in place to provide reasonable assurance that material misstatements will
    not be made on the financial statements. Specifically, we assessed the control
    environment and control activities related to the acquisition, modifications, and
    deletions of real property assets. To comply with generally accepted government
    auditing standards 4.14, “Considering the Results of Previous Audits. . .,” we followed
    up on the findings and recommendations that PwC issued in various reports from
    FY 1999 through FY 2000. We also reviewed the management control program as it
    relates to the audit objectives. See Appendix A for a discussion of the scope and
    methodology and Appendix B for prior audit coverage related to the objectives.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    internal controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Managers’ Internal Control Program. We reviewed the
    adequacy of the Military Departments’ internal controls over accountability for real
    property and implementation of controls to ensure audit trails are retained when
    databases are modified to bring the systems into compliance with financial reporting
    requirements. Specifically, we reviewed the internal controls over the acquisition,


                                            3
addition, and deletion of real property and the recording of modifications and CIP
accounts. We reviewed the Military Departments’ FY 2004 Annual Statements of
Assurance to determine whether they disclosed the weaknesses in internal controls over
the General PP&E real property. We also reviewed management’s self-evaluation
applicable to those controls.

Adequacy of Internal Controls. We identified material management control
weaknesses, as defined by DoD Instruction 5010.40, related to DoD acquisition,
addition, and deletion of real property and the recording of modifications and CIP in the
database. Details of these weaknesses are reported in finding A of this report with
recommended corrective actions. A copy of this report will be sent to the senior official
in charge of internal controls for the Office of the Secretary of Defense and the
Departments of the Army, the Navy, and the Air Force.

Adequacy of Management’s Self-Evaluation. DoD identified the financial reporting
of real property as an assessable unit. However, the Navy did not identify material
weakness of the financial reporting of real property. The Air Force identified
accounting for real property as a material weakness corrected. The Army identified the
material weakness of the financial reporting of real property. The inadequacy of the
Military Departments’ self-evaluation could result in continuing problems in real
property accountability. Management’s Self-Evaluation is addressed in finding A.




                                        4
            A. Military Departments’ Real Property
               Internal Controls
            The three Military Departments had either fully or partially implemented most
            of the controls recommended by PwC at the headquarters level. However, real
            property offices at the installation level either did not have or did not implement
            internal controls to provide reasonable assurance that material misstatements
            would not be made on future financial statements. Weaknesses in the control
            environment led to deficiencies in the areas of human capital assets and
            knowledge management.

                   •   Management did not effectively manage staffing, leaving essential
                       positions vacant for extended periods.
                   •   The Military Departments did not consistently find knowledgeable
                       personnel to effectively perform in various real property-related jobs
                       and did not provide training to ensure that personnel knew how to
                       complete essential tasks.

            The control environment contributed to weaknesses in the real property control
            activities. Real property personnel did not follow policies and procedures, or
            management had not developed procedures at the installation level to ensure that
            real property and movement of real property costs from the CIP accounts to the
            real property accounts were recorded accurately and timely in the property
            records. In addition, real property personnel did not retain the documentation
            required to support existence, completeness, and valuation of real property
            assets. Finally, the Military Departments identified financial reporting of real
            property in their annual assessment of high-risk areas but did not identify
            weaknesses in recording the addition, deletion, and modification of real
            property.

            As a result of these internal control weaknesses, the real property data were
            inaccurate, thus leading to a lack of internal control over transactions reported in
            the financial statements.

Criteria
     Document Retention. National Archives and Records Administration (NARA)
     General Records Schedule Transmittal No. 8, December 1998, General Records
     Schedule 3, “Procurement, Supply and Grant Records,” Item 1 and General Records
     Schedule 4, “Property Disposal Records,” Item 4 provide criteria for retaining
     documents accounting for acquisition of real property (by purchase, condemnation,
     donation, or exchange).

     Internal Controls Standards. Government Accountability Office/Accounting and
     Information Management Division (GAO/AIMD)-00-21.3.1, “Standards for Internal
     Control in the Federal Government,” November 1999, provides the overall framework
     for establishing and maintaining internal control over identifying and addressing major


                                             5
     performance and management challenges. The control environment that management
     and employees establish and maintain throughout the organization determines the
     attitude for compliance with policies and procedures. Control activities are the policies
     and procedures that should effectively and efficiently accomplish the agency’s control
     objectives. The standards emphasize the need for accurate and timely recording of
     transactions and events, stating:
            Transactions should be promptly recorded to maintain their relevance and
            value to management in controlling operations and making decisions. This
            applies to the entire process or life cycle of a transaction or event from the
            initiation and authorization through its final classification in summary records.
            In addition, control activities help to ensure that all transactions are completely
            and accurately recorded.

     Real Property. DoD Regulation 7000.14-R, “DoD Financial Management
     Regulation,” (FMR), volume 4, chapter 6, paragraph 060106, requires that documents
     that support the acquisition of General PP&E assets must be maintained in a readily
     available location during the applicable retention period, so the information pertaining
     to the asset, such as the acquisition cost, acquisition date, and cost of improvements,
     can be validated. Supporting documentation may include purchase invoices, sales and
     procurement contracts, DD Forms 1354 “Transfer and Acceptance of Military Real
     Property,” Engineering Forms 3013 “Work Order/Completion Report,” construction
     contracts, work orders, and other such documentation generated independently of the
     entity in possession of the property. Paragraph 060107 requires that DoD Components
     perform physical inventory of General PP&E real property every 5 years.

     Use of DD Form 1354. UFC 1-300-08, “Criteria for Transfer and Acceptance of
     Military Real Property,” June 30, 2004, establishes a process to transfer and accept real
     property accountability and costs for capital improvement projects in a timely and
     consistent manner throughout DoD and between Military Departments. UFC 1-300-08
     requires the timely and consistent posting of newly constructed and transferred facilities
     and their costs into the real property database. UFC 1-300-08 recommends that
     Military Departments use DD Form 1354 to record transfers, changes, additions, or
     deletions of real property owned by the Military Departments for projects managed by
     the construction agents and field-level commands.

Military Department Inventory Regulations
     Army Regulation 405-45, “Real Property Inventory Management,” November 1, 2004,
     requires that a physical inventory be conducted by the field-level commands at least
     once every 5 years and that information maintained on file in real property records
     accurately reflects physical inventory.

     NAVFAC P-78, “Navy Facility Assets Procedures Manual,” September 30, 2001,
     requires that inventories be conducted by the field-level commands at least every
     3 years.

     Air Force Instruction 32-9005, “Real Property Inventory,” September 30, 1994,
     paragraph 5.1, requires a complete physical inventory by the field-level commands of
     all real property every 5 years.



                                                    6
Internal Control Review
           The Military Departments had either fully or partially implemented most of the controls
           PwC recommended at the headquarters level. PwC recommended that the Military
           Departments implement business rules and use them correctly and consistently and
           maintain an audit trail supporting the financial statement amounts. An additional
           recommendation was that key controls associated with the real property asset life cycle
           should be identified and tested and, where needed, additional controls should be
           developed and implemented. See Appendix C for our assessment of how well each
           Military Department implemented each PwC recommendation. Despite having controls
           at the headquarters level, the real property offices at the installation level either did not
           have or did not implement internal controls to provide reasonable assurance that
           material misstatements would not be made on future financial statements. Weaknesses
           in the control environment led to deficiencies in the areas of human capital assets and
           knowledge management. The control environment contributed to weaknesses in the
           real property control activities.


Control Environment
           Human Capital Assets. Management had not designed the work force to provide for
           contingencies of staff taking time off or vacating positions; therefore, there is no
           assurance that essential tasks such as updating real property records, performing
           inventories, and reconciling accounts will be completed. In fact, real property
           personnel in all three Military Departments indicated the most common reason for not
           completing inventories and other functions was inadequate staff. Critical real property
           positions were not fully staffed or were left vacant for extended periods. Of the 13 real
           property offices visited, 7 were staffed with only 1 individual completing all tasks. 1
           GAO/AIMD-00-21.3.1 states,
                    Effective management of an organization’s workforce—its human capital—is
                    essential to achieving results and an important part of internal control.
                    Management should view human capital as an asset rather than a cost. Only
                    when the right personnel for the job are on board and are provided the right
                    training, tools, structure, incentives, and responsibilities is operational success
                    possible. Management should ensure that skill needs are continually assessed
                    and that the organization is able to obtain a workforce that has the required
                    skills that match those necessary to achieve organizational goals. Training
                    should be aimed at developing and retaining employee skill levels to meet
                    changing organizational needs.

                   Army. Positions were not fully staffed or were left vacant for extended periods
           at three of the four real property offices visited. At one real property office, two realty
           specialist positions had been vacant for 17 months and 18 months, respectively. At
           another real property office, a real property accountable officer and a realty specialist
           were in the process of retiring from Government service. The only person with

1
    Appendix A identifies the four Army, five Navy, one Marine Corps, and three Air Force real property offices
    visited during our review.



                                                            7
           expertise who would be left in the office was a contractor who indicated that he would
           apply for the jobs when they were announced. As a result, the contractor employee will
           be responsible for handling the real property office functions until the jobs are filled.
           At another real property office, a realty clerk with limited real property experience was
           not sufficiently trained to perform the tasks required by the position.

                   Navy. At the five Navy offices and one Marine Corps office visited, the real
           property inventory specialist 2 positions were staffed. However, at one of the Navy
           offices there was some confusion and disagreement among peers as to the real property
           inventory specialist’s iNFADS responsibilities. Written guidance consisted of the Navy
           Facility Assets Procedures Manual, NAVFAC P-78, September 2001, which delineates
           responsibilities and provides direction to the real property offices about how to fill out
           the data for iNFADS. The Navy’s new organizational structure provides for one
           position, the real property inventory specialist, to report via the chain of command to
           the Commanding Officer. All other positions report via the NAVFAC chain of
           command, which does not include the local Commanding Officer. This reporting
           structure creates stovepipe positions that the Commanding Officer has little or no
           authority to use to complete the field-level command mission. At one of the five Navy
           activities visited, the real property inventory specialist was assigned other duties that
           precluded her performing iNFADS duties.

                   Air Force. At two of the three Air Force locations visited, the real property
           office staff consisted of one position to perform the real property functions. At one
           office, a real property officer had been appointed within the last 12 months despite
           limited real property experience. Because the position had been vacant prior to this
           individual taking over, the workload was backed up and there was no one to provide on-
           the-job training. As a result, postings of real property assets were delayed. At another
           real property office, the real property officer’s position was being filled. As a result,
           neither of these two offices completed real property physical inventories.

           Knowledge Management. Of the 13 real property offices visited, 6 had not cross
           trained individuals so that a contingent process could be used to continue business if a
           position became vacant.

                   Navy. At some Navy regional commands, personnel were available as back ups
           in the event of sudden vacancies in real property offices. The Marine Corps staff at
           Camp Lejeune was cross trained. However, cross training for real property specialists
           was not observed at four of the five Navy locations visited.

                   Air Force. Critical Air Force real property positions were not fully staffed or
           were left vacant for extended periods. In one office, an individual was responsible for
           the jobs previously performed by three others. Personnel doing the jobs had little or no
           experience or training in real property procedures or had been trained but without cross
           training to ensure continuity of operations.

                  The control environment weaknesses led to inaccuracies in the real property
           databases and the real property accounts shown in the financial statements. Real


2
    Term is used to describe Navy personnel primarily responsible for posting data to iNFADS. Individuals who
    perform similar duties for the Army and Air Force systems are known as realty specialists.



                                                         8
     property offices must be adequately staffed and personnel must be properly trained and
     cross trained to correct these weaknesses.


Control Activities
     The control environment contributed to weaknesses in the control activities. Military
     Departments have not established procedures or procedures were not being followed for
     the accurate and timely recording of real property. Further, Military Departments did
     not always have or retain documentation required to support existence, completeness,
     and valuation. In addition, the Military Departments had neither performed the real
     property inventories, as required by the FMR, nor reconciled the CIP and real property
     accounts when the assets were placed in service. These control weaknesses were
     previously identified in DoD OIG Report No. D-2000-172, August 11, 2000.

     Accurate and Timely Recording of Transactions and Events. When resident
     construction agents provided documentation for the acquisition, modification, or
     deletion of real property, it was not always accurate and timely. Also costs were not
     sufficiently broken out on the documentation to provide real property personnel the
     ability to categorize the cost of various assets in a specific project or to complete timely
     posting of the assets to the real property database. For example, real property
     documents may provide a total project cost that consists of a building, a parking lot, and
     utilities. The real property personnel did not have the information to record these parts
     separately. Categorizing the costs of assets is important because of the difference in
     useful lives and depreciation schedules. Policy should be developed to provide
     consistency in recording real property transactions and categorizing costs.

     Military Departments’ criteria did not consistently dictate the time allotted for inputting
     data once the real property office accepted the asset and when the real property office
     would receive the documentation. The UFC 1-300-08, paragraph 4-1 states,
            The Army’s Management Controls typically allow the realty specialist 10 days
            to enter the information from DD Form 1354 into the real property database.
            The other Services establish their own management controls and timelines to
            ensure that DoD property plant and equipment does not double-count or
            under-count real property assets.

     The UFC 1-300-08 should be modified to provide consistent timelines for
     documentation of real property for all Military Departments. More consistency is
     needed in the criteria for timeliness and providing updated forms. The Military
     Departments should apply consistent dates (beneficial occupancy date) as to when the
     asset will be capitalized. In all of the Military Departments, the problems noted
     involved procedures either not established or not followed.

             Army. At all four Army offices visited, internal controls were not adequate for
     the proper and timely recording of additions, deletions, and modifications to IFS. Army
     installations did not always record in IFS changes to real property accounts in the same
     fiscal year that the change occurred. In many instances the USACE contracting agents
     submitted DD Forms 1354 with inaccurate data, which delayed the processing of the
     form into IFS by the real property office.


                                                 9
        Contracting agents at all four installations failed to submit DD Forms 1354 in a
timely manner to the real property offices. At one installation more than 2 years passed
before a $370,676 capital improvement was transferred to the real property office. At
another installation, 22 days elapsed before the transfer of a $223,814 capital
improvement. At the third installation it took 53 days to transfer a $12,552,367 new
construction project to the real property office. Finally, at the remaining installation
2 years and 6 months passed between the effective date and the transfer to the real
property office of a $13,242,649 new asset.

        None of the four real property offices received notification that disposals had
occurred in a timely manner. At two of the real property offices visited, the auditors
found source documents that stated that the asset in question had been deleted because
it could no longer be found on the military installation. Another office was using aerial
photographs of the installation, at 2-year intervals, to document the demolition of
assets.

        Navy. Based on transactions we reviewed, postings did not appear to be timely
at two of the five Navy real property offices visited. At one of the five Navy real
property offices, the accuracy and timeliness of iNFADS postings could not be assessed
because the Navy did not maintain documentation. At one real property office visited, a
2003 capital improvement was entered in iNFADS with a value of $5 million, although
documentation showed the value should have been $500,000. The value has since been
corrected in iNFADS. Based on our limited review of documentation for Marine Corps
transactions, the iNFADS postings were accurate, but it took up to 90 days for
transactions to be posted.

        Air Force. The Air Force had not developed procedures to ensure real property
transactions were recorded accurately and timely. At one real property office, a
$12 million improvement in 2004 was entered as a modification to the original facility
acquisition cost using the original acquisition date rather than the improvement’s
placed-in-service date. As a result, the improvement’s net book value was zero with no
remaining life at the time of input.

       Two Air Force offices had real property transactions funded by military
construction that had been accepted by the base civil engineer on a DD Form 1354 but
not recorded in ACES-RP in a timely manner. Input of transactions took more than
180 days in some cases.

        Two Air Force offices had transactions funded by military construction where
beneficial occupancy or physical completion had occurred in accordance with the
Beneficial Occupancy Letter or DD Form 1354, although the transactions had not been
recorded in ACES-RP. At one real property office, beneficial occupancy occurred in
January 2005 and a DD Form 1354 had not been received from USACE as of
March 2005. At another real property office, the base civil engineer had signed the
DD Form 1354 showing acceptance in October 2004, but as of May 2005 the
transaction had not been recorded in ACES-RP.

Real Property Supporting Documentation. Documentation was not adequate to
substantiate that all:

   •   assets were recorded in the inventory records (completeness),


                                       10
                •    assets were owned by DoD (rights and obligations),

                •    inventory records corresponded to an asset (existence), and

                •    assets were properly valued (valuation).

           This occurred because the Military Departments neither followed procedures noting the
           potential sources of documents that could be used nor retained the proper documents, if
           used, to support the inventory records.

                   Use of Supporting Documentation. From 1998 through 2000, the DoD OIG
           worked with the Military Departments to develop a memorandum of understanding that
           would standardize real property documentation processes within DoD. Real property
           managers in the Military Departments agreed to consider the DD Form 1354 the
           document of choice to prove acceptance of real property. DD Form 1354 would be
           used regardless of funding source (for example, military construction or operation and
           maintenance), and regardless of the construction overseer (either the construction agent
           or installation engineer). This agreement became written policy when UFC 1-300-08
           was issued December 17, 2003. Despite the guidance, neither the Navy nor the Air
           Force properly used the DD Form 1354 to document projects that were built with
           nonmilitary construction funding. The UFC 1-300-08 references the FMR, which
           provides examples of documentation that may be used to substantiate real property
           costs. Documentation examples are purchase invoices, sales and procurement contracts,
           Engineering Form 3013, construction contracts, work orders, and other documentation
           generated independently of the entity in possession of the property to support the real
           property transactions.

           The Army and Air Force real property offices had procedures for documenting real
           property transactions, but the personnel did not consistently follow them. The Navy
           was not using the DD Form 1354 in FY 1999 but agreed in FY 2003 to start using it to
           be consistent with the other Military Departments. To further complicate the process,
           the Navy does not have standard processes for documenting the turnover of projects
           from NAVFAC to the receiving organization or for documenting acceptance of an asset.
           The Navy lacks guidance directing who will provide source documentation and what
           they will provide to real property inventory specialists to update databases.

                   Retention of Supporting Documentation. The Army retained supporting
           documentation; however, the Navy and Air Force real property offices did not retain
           documentation of those transactions that meet the FMR requirements for retention.
           Paragraph 060106 also requires that documentation be maintained in a readily available
           location, during the applicable retention period, 3 to permit the validation of information
           such as the acquisition cost, acquisition date, and cost of improvements pertaining to
           the asset.



3
    Applicable retention period for real property is defined by NARA. For property acquired after December 31,
    1920, title papers documenting the acquisition of real property, excluding abstracts or certificates of title, may be
    disposed of 10 years after the unconditional sale or release by the Government of conditions, restrictions,
    mortgages, or other liens. Abstracts or certificates of title transferred to purchasers may be disposed of after the
    unconditional sale or release by the Government of conditions, mortgages, or other liens.



                                                            11
               Navy. Although Navy personnel knew they needed to retain
documentation to support real property acquisition, modifications, and deletions, they
were not always sure what documents should be retained, by whom, or for how long.
There was a general lack of consistency in the documentation retained by the Navy,
mainly because the Navy had not adopted the use of DD Form 1354 to document the
acceptance of real property assets.

                 Secretary of the Navy Instruction 5212.5D, “Navy and Marine Corps
Records Disposition Manual,” April 22, 1998, authorizes the disposal of real property
valuation records after 6 years and 3 months. This instruction conflicts with the NARA
General Records Schedule 3, Item 1, “Real Property Files,” which requires that real
property documents be retained until 10 years after the disposal of the asset. Although
General Records Schedule 3, Item 3, “Routine Procurement Files,” provides that
contracts and other procurement documents may be disposed of 6 years and 3 months
after the final payment, the stricter retention standard provided in Item 1 is applicable to
real property. Specifically, real property documentation proving existence and
valuation should be established and maintained until 10 years after the disposal of the
asset. Clarification is needed to ensure that the Services interpret the NARA guidance
as intended, and that personnel updating real property records understand that Military
Department guidance may supplement but not replace higher level requirements.

                Air Force. At the three Air Force offices visited, supporting
documentation was not sufficient or not available for real property transactions entered
into ACES-RP for many of the items sampled. One real property office had little or no
documentation to support two FY 2003 improvement projects valued at $1,231,844 and
$2,690,638, respectively. The amounts entered into ACES-RP could not be traced back
to sufficient supporting documents supplied by the RPAO.

               At two of three offices, disposal documentation was not sufficient or not
available in ACES-RP for demolished facilities. At one real property office, we
selected a sample of six disposal transactions. The only documentation available for
three of the demolished facilities was e-mails stating that two facilities had been
demolished. One facility was actually an addition that had been deleted inadvertently
by the real property personnel.

Real Property Inventories. The FMR, volume 4, chapter 6, paragraph 060106
provides that general ledger transaction data and supporting subsidiary property records
and systems must enable periodic independent verification of the accuracy of the
records through physical inventories of PP&E (existence and completeness—“book to
floor” and “floor to book”). Physical inventory is an important procedure that helps to
provide assurance that recorded data is accurate. When required inventories are not
performed, data problems will not be identified or corrected. This situation could
ultimately lead to material misstatements being reported in the DoD financial
statements. Although procedures existed, managers did not ensure their staffs
completed the required real property inventories despite the multiple instances that
facilities were inspected for other reasons.

        Two Army offices had not conducted full physical inventories of real property
assets within the required 5-year cycle. In the Navy, inventories were not being
performed within 5-year cycles at three of five real property offices visited. In every
instance personnel stated that the reason for not completing inventories was


                                        12
understaffing. Two of the Navy and the one Marine Corps real property offices visited
were accomplishing inventories in a 3-year cycle. In the Air Force, at all three real
property offices visited, real property physical inventories were not being performed in
accordance with Air Force guidance to ensure that assets in the real property database
existed and the database was complete.

Reconciliation of CIP and Real Property Accounts. Procedures were not developed
to ensure CIP and real property accounts were updated appropriately after beneficial
occupancy. In addition, Army and Air Force users of USACE construction services had
not annually reconciled CIP balances in recent years.

The Military Departments did not develop command procedures to ensure the RPAOs
or their agents were always included in the acceptance inspection processes. None of
the three Military Departments has a method to ensure simultaneous posting of the two
accounts. Neither the construction agent nor the RPAO had procedures that ensured the
CIP account and the appropriate Standard General Ledger account were updated
simultaneously or within 10 days suggested by UFC 1-300-08. The standard
procedures do not allow the construction agent to reduce CIP and the RPAO to increase
the value of real property simultaneously.

The FMR requires an annual reconciliation; however, none of the Military Departments
regularly completed the reconciliation of CIP accounts. DoD 7000.14-R, FMR,
volume 4, chapter 6, states that CIP cost amounts are accumulated by USACE or
NAVFAC, as applicable, when they are managing and responsible for the construction.
The DoD Component that will receive the constructed property must report CIP
amounts on its financial statements, regardless of the type of funds used for
construction. Such CIP balances must be provided annually by USACE and NAVFAC
to the appropriate reporting DoD Component along with supporting documentation in
sufficient detail to reconcile the CIP balances by project and funding source. In
addition, USACE and NAVFAC must provide any supporting documentation needed
for the reconciliation process to the reporting DoD Component upon request. The
UFC 1-300-08, developed by the real property managers, restates the FMR requirement
that each of the construction agents provide construction balances annually to the
appropriate reporting DoD Component along with supporting documentation to
reconcile CIP balances by project and funding source. Such a process could provide the
Services some assurance that CIP amounts reported on financial statements are correct.

       NAVFAC. NAVFAC has developed procedures and is now reporting CIP
balances by project and funding source to the Air Force.

       USACE. The Air Force organizations who use USACE services did not
annually reconcile CIP balances required by FMR volume 4, chapter 6,
paragraph 060203, subparagraph B.3. because USACE did not provide CIP balance
data. USACE and Defense Finance and Accounting Service (DFAS) automated CIP
data, which changed the reporting process. Prior to data automation, USACE tracked
and reported each CIP project to the responsible Military Department annually.
USACE now provides the information to the DFAS location where the data becomes
resident on the DFAS Web page. USACE and DFAS determined that access to the
Web page provided a greater accessibility to the information in a real-time environment
than sending reports to the Military Departments’ Comptrollers. However, this change



                                       13
     was not communicated to the Military Departments’ Comptrollers. As a result, Air
     Force did not obtain the information needed to perform the reconciliations.


Managers’ Assessment of Internal Controls
     The DoD assessment of internal controls identified financial reporting of real property
     management as a high-risk area. However, the Military Departments’ control programs
     were ineffective and did not identify material weaknesses related to the acquisition of
     real property assets, modifications, and deletions of DoD real property.

             Army. Army’s real property database, IFS, does not allow for depreciation, and
     subsequent entries in dollar values override previous dollar values with no audit trail of
     real property transactions. In addition, data mismatches and negative numbers from IFS
     were not allowed in the Defense Property Accountability System (DPAS) and resulted
     in dollar values being overridden and audit trails being lost. The Army recognized that
     the attempted solution of DPAS interface with IFS did not work for real property
     financial reporting; thus, they identified financial reporting of real property as a
     material weakness. The Army discontinued the DPAS interface and modified IFS to
     calculate depreciation and run financial reports directly from each site. The material
     weakness will be corrected when IFS is able to calculate depreciated values for real
     property, provide an audit trail of all real property transactions, and interface with the
     DFAS Corporate Database. However, the Army did not identify any weaknesses in
     recording the addition, deletion, and modification of real property and did not fully
     disclose the deficiencies on its financial statements.

             Navy. The Navy did not identify financial reporting of real property as a
     material weakness. Also, the Navy did not identify a weakness in recording the
     addition, deletion, and modification of real property. The Navy has failed to address the
     internal controls related to real property.

             Air Force. The Air Force identified accounting for real property as a material
     weakness corrected. Although the Air Force implemented the ACES-RP to improve
     internal controls over accounting for real property, Air Force management needs to
     develop a plan to prove existence, completeness, and valuation of Air Force real
     property assets and continue to improve internal controls over recording real property
     transactions.

             The Military Departments are required to report the results of their evaluation of
     internal controls to the Office of Secretary of Defense. We attribute the weaknesses in
     the reporting of real property to inadequate assessments of internal controls.


Impact on the Financial Statements
     Weak control environment and control activities related to DoD real property
     acquisition, additions, and deletions led to deficiencies causing inaccurate real property
     databases. These inaccuracies consisted of acquired property not recorded in the
     database, deleted properties not removed from the database, and modifications to


                                             14
    property not recorded in the databases. In addition, the lack of supporting
    documentation led to unsupported values for the real property that was included in the
    databases. As a result of the weak control environment and control activities, the real
    property databases were inaccurate, thus leading to a lack of internal control over
    transactions reported in the PP&E account.

Conclusion
    A weak control environment related to DoD real property acquisition, additions, and
    deletions led to deficiencies in the areas of human capital assets and knowledge
    management. The control environment contributed to weaknesses in the real property
    control activities. As a result, the Military Departments do not have procedures or did
    not follow existing procedures to ensure the following.
       •  Management will fully staff vacated real property positions or that positions will
          not be left vacant for extended periods.
       • Personnel are trained and cross trained to allow for contingencies.
       • Real property records will be maintained accurately and timely.
       • Engineering, contractor, and RPAO (or his or her agent) will acquire, accept,
          and inspect real property in a cooperative process.
       • Documentation provided to the real property office will be adequate to prove
          value, existence, and completeness of real property assets.
       • The Navy and Marine Corps will use DD Form 1354.
       • The Navy and Air Force will use DD Form 1354 for construction projects
          funded with other than military construction funds.
       • Engineering and real property personnel will coordinate updating data so that
          CIP accounts are simultaneously reduced when beneficial occupancy occurs.
       • USACE will communicate to all components how to access CIP data so that
          reconciliations can be performed.
    The same weaknesses identified during this audit were identified and reported in DoD
    OIG Report No. D-2000-172, August 11, 2000 and Service audit agency reports.


Recommendations, Management Comments, and Audit Response
    Management Comments Received Late. Comments from the Deputy Under
    Secretary of Defense (Installations and Environment) and the Assistant Deputy Chief of
    Staff/Logistics, Installations and Mission Support, U.S. Air Force were received too late
    to be considered in preparing the final report. If the Deputy Under Secretary and the
    Assistant Deputy Chief of Staff do not submit additional comments by May 5, 2006, we
    will consider the comments received as the response to the final report.

    A.1. We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment) require Military Departments to:



                                           15
      a. Staff their real property offices with an adequate number of skilled
personnel to perform the essential real property tasks required by regulations.

       b. Provide necessary training and cross training so that real property
functions can be worked in a timely manner.

      c. Develop procedures that will standardize the process for recording real
property acquisitions, deletions, and modifications for the Military Departments.

       d. Use the DD Form 1354 as suggested by Unified Facilities Criteria 1-300-
08 for acceptance of all construction projects yielding capital assets, and that cost
should be fully documented on this form with supporting documentation retained.

      e. Develop policy that requires a reconciliation of the real property assets
and construction-in-progress accounts.

A.2. We recommend the Deputy Under Secretary of Defense (Installations and
Environment) and the Under Secretary of Defense (Comptroller)/Chief Financial
Officer issue policy that will require Military Departments to retain supporting
documentation for real property in accordance with National Archives and
Records Administration, and the Secretaries should clarify who should retain the
documents needed to support the DD Form 1354.

Management Comments. The Under Secretary of Defense (Comptroller)/Deputy
Chief Financial Officer agreed with the intent of the recommendation to issue policy on
document retention in accordance with the NARA, and to clarify policy about who
should retain documents to support the amounts reported on the DD Form 1354. The
Deputy Chief Financial Officer stated that they will work with the installation and
logistics community to develop an approach to incorporate the NARA requirement into
its policy guidance and to develop rules about who should retain the documentation to
support the DD Form 1354.

Audit Response. The Under Secretary of Defense (Comptroller)/Deputy Chief
Financial Officer agreed with the intent of the recommendation. Although management
did not specifically concur, the plan of action satisfies the recommendation, and
therefore, the comments are responsive.

A.3. We recommend that the Commander of the U.S. Army Corps of Engineers;
the Commander of the Naval Facilities Engineering Command; the Assistant Chief
of Staff for Installation Management, U.S. Army; and the Deputy Chief of Staff,
Installations and Logistics, U.S. Air Force:

       a. Provide oversight to resident engineers on Military installations so that
the resident engineers will provide timely interim and final DD Forms 1354 that
are accurate and with cost sufficiently broken out to enable the real property office
personnel to properly value assets.

Naval Facilities Engineering Command Comments. The Naval Facilities
Engineering Command concurred, and stated that guidance for the use and preparation
of the DD Form 1354 was issued in August 2005. The guidance clarifies the roles and
responsibilities for completing the draft, interim, and final versions of the form, and


                                       16
ensures that construction costs are properly accounted for as they are transferred to
clients. The NAVFAC staff will monitor the implementation and use of the form
during FY 2006 to ensure that it is properly implemented.

       b. Provide oversight to resident engineers on Military installations so that
the Real Property Accountable Officer or his or her agent is included in the
inspection and acceptance on beneficial occupancy date.

Naval Facilities Engineering Command Comments. The Naval Facilities
Engineering Command concurred, and stated that if the guidance issued in August 2005
is properly implemented, the RPAO should be included in the inspection and
acceptance on the beneficial occupancy date. The NAVFAC staff will monitor the
implementation of the guidance during FY 2006 to ensure that it is properly
implemented.

        c. Provide a defined timeline and procedure for engineering personnel to
notify comptroller and real property personnel that beneficial occupancy has
occurred and will result in construction-in-progress assets being reduced
simultaneously when real property assets are increased; or develop automated
procedures that will result in simultaneous posting.

Naval Facilities Engineering Command Comments. The Naval Facilities
Engineering Command concurred, and stated that the guidance issued in August 2005
should ensure that the RPAO is notified of the beneficial occupancy date. NAVFAC
staff established an automated procedure that provides an e-mail to the RPAO when
95 percent of the project is complete. A review of the construction-in-progress process
is currently being undertaken, and is to be completed by June 30, 2006.

       d. Ensure that the real property personnel perform inventories as required.

Naval Facilities Engineering Command Comments. The Naval Facilities
Engineering Command concurred, and stated that there is a milestone to develop an
approach to performing and documenting real property inventories that meets the
requirement of the DoD Real Property Inventory and Reporting. The milestone is to be
completed by March 29, 2007.

Management Comments Required. The Commander of the U.S. Army Corps of
Engineers and the Assistant Chief of Staff for Installation Management, U.S. Army did
not comment on the recommendation. We request that the Commander and the
Assistant Chief of Staff provide comments on the recommendation by May 5, 2006.

A.4. We recommend that the Assistant Secretaries of Army, Navy, and Air Force
(Financial Management and Comptroller) report the material weaknesses
identified in finding A of this report in their annual statement of assurance until
the weaknesses are corrected.

Assistant Secretary of the Navy (Financial Management and Comptroller)
Comments. The Assistant Secretary of the Navy (Financial Management and
Comptroller) concurred. The Deputy Assistant Secretary of the Navy stated that they




                                        17
will evaluate real property controls in accordance with OMB Circular A-123 as they
develop this year’s Departmental Statement of Assurance and make the determination
whether it should be included as a material weakness.

Management Comments Required. The Assistant Secretary of the Army (Financial
Management and Comptroller) did not comment on the recommendation. We request
that the Assistant Secretary of the Army provide comments on the recommendation by
May 5, 2006.




                                     18
            B. Air Force Real Property Baseline
            In 1999 when the Air Force populated its new real property database, ACES-RP,
            it did not retain an audit trail to the 1998 database information that supported the
            PWC valuation validation. Furthermore, from 1999 through 2001, the Air Force
            did not retain audit trails from its new ACES-RP database to the amounts
            reported in the Air Force financial statements. The processes used by the Air
            Force during development of ACES-RP did not provide audit trails to the 1998
            validation of existence and completeness of real property. Further, because the
            Air Force did not retain hard copy documentation that provided adequate audit
            trails to the financial statements, the Air Force has a gap in its financial
            statement data. As a result, the Air Force has no established baseline value for
            purposes of financial reporting and audit. Further, the Air Force has not
            validated the existence, completeness, or valuation of its real property data
            assets in the new database.


Criteria
     Population of Databases. GAO/AIMD-00-21.3.1, “Standards for Internal Control in
     the Federal Government,” November 1999, application system development and
     maintenance control provides the structure for safely developing new systems and
     modifying existing systems. Included in these general controls are documentation
     requirements; authorizations for undertaking projects; and reviews, testing, and
     approvals of development and modification activities before placing systems into
     operation.

     Audit Trails. FMR, volume 1, chapter 2, subparagraph 020207 (I), is about system
     processing characteristics, and states: “Audit trails to the original documents and
     transactions shall be established and maintained.”

     Volume 1, chapter 3 of the FMR prescribes procedures for determining whether its
     provisions are met by DoD accounting systems. Specifically the procedures test
     whether the systems are designed, documented, and operated in compliance with this
     Regulation. The chapter 3 addendum lists key requirements for accounting systems,
     and Number 8, “Audit Trails,” states the following:

                Audit trails permit tracing transactions through a system. Audit trails allow
                auditors or evaluators to ensure transactions are properly accumulated and
                correctly classified, coded and recorded in all affected accounts. Audit trails
                should allow a transaction to be traced from initiation through processing to
                final reports. In addition, good audit trails allow for the detection and tracing
                of rejected or suspended transactions, such as unmatched disbursements, for
                ultimate systematic correction in a reasonable timeframe.

                A fundamental requirement for any compliant accounting system is that the
                financial transactions for which the system must account be adequately
                supported with pertinent documents and source records. All transactions,
                including those which are computer-generated and computer-processed, must
                be traceable to individual source records. Audit trails enable the tracing or


                                                  19
                replicating of a transaction from its source to the resulting record or report,
                and from the resulting record or report to the source. Items in source records
                necessary for audit-trail purposes include transaction type, record or account
                involved, amount, processing references, and identification of the preparer and
                approver of the transaction. A key test of the adequacy of an audit trail is
                whether tracing the transaction forward from the source or back from the
                result will permit verification of the amount recorded or reported.



Population of the Real Property Database
     Because of limitations in the former real property financial reporting system, IWIMS,
     the Air Force implemented a new real property reporting database in 1999, the
     ACES-RP. The real property data in IWIMS was migrated into ACES-RP; however,
     the Air Force did not retain an audit trail to the 1998 database information that
     supported the PWC valuation validation. Furthermore, from 1999 through 2001, the
     Air Force failed to retain audit trails from its new ACES-RP database to the amounts
     reported in the Air Force financial statements. The Air Force’s decision to change its
     real property reporting system in 1999 and its failure to retain the trial balances and
     source databases resulted in a loss of transaction histories necessary to support the FY
     1998 real property baseline and FY 1999 financial statements. To compensate for the
     lack of an audit trail, PwC used data from the Air Force Real Estate Agency inventory
     system, which accounts for the use of facilities and facility area amounts. PwC
     determined late in its review that this system did not have the necessary data to fully
     support its review. PwC recommended that an audit trail supporting the financial
     statement amounts be maintained.

Audit Trails from the Old to the New System
     The Air Force used processes during development of ACES-RP that did not provide
     audit trails to the 1998 values. Further, because the Air Force did not retain hard copy
     documentation that provided adequate audit trails to the financial statements, a gap was
     created in the Air Force financial statement data. Systems personnel at Gunter Air
     Force Base stated the implementation program had technical problems when it
     converted records from the old system format to the new ACES-RP format. The new
     format contains new or converted data fields not contained in the old database. For
     example, SERVICE_DT became Date Placed in Service and COST_BASIS became
     Acquisition Cost. The systems personnel explained that because the two systems do not
     have comparable formats, the Air Force is unable to apply the current system values
     back to the 1998 baseline values. The Air Force did not retain the old source database;
     thus, the ACES-RP database administrators are unable to go back to the old data.
     Further, the old system was primarily manual. Personnel cannot find the documentation
     that supports the 1999 through 2001 manual process, which creates a larger gap.

Baseline Value for Financial Reporting
     The Air Force has no established baseline value for purposes of financial reporting and
     audit. Further, the Air Force has not validated the existence, completeness, or valuation


                                                 20
    of its real property data assets in the new database. Air Force system personnel stated
    that it is cost prohibitive to reperform the process of deriving the FY 1998 baseline.
    Nor is it practical to reproduce the data for the years 1999 through 2001 needed to
    support the financial statement balances. However, the FMR clearly requires, and PwC
    recommendations from FY 2000 specify, that audit trails supporting financial statement
    amounts must be maintained. The Standard Systems Group that manages the Air Force
    real property system stated that although they cannot recreate prior years’ data, the
    ACES-RP system became fully operational in FY 2002; it can provide an audit trail and
    any information required for additions and deletions to the real property inventory from
    FY 2002 forward. The Air Force needs to develop a new real property baseline that can
    be validated for existence, completeness, and valuation and it needs to maintain an audit
    trail to support the financial statements.


Conclusion
    The Air Force not retaining transaction histories in the development of the new system
    caused it to lose the ability to calculate additions and deletions made to the real property
    data through at least FY 2001. Because of the lack of audit trails, the Air Force has no
    validated baseline up to the present. Furthermore, the Air Force cannot ensure that its
    database contains complete and accurate data, and the database needs to be validated for
    existence, completeness, and valuation. The Army and the Navy maintained audit trails
    sufficiently to support their Department baselines for real property; however, the lack of
    an Air Force baseline could delay any plans for DoD to assert the correctness of its
    financial statements with any reasonable expectation of obtaining a favorable audit
    opinion.


Recommendations
    Management Comments Received Late. Comments from the Assistant Deputy Chief
    of Staff/Logistics, Installations and Mission Support, U.S. Air Force were received too
    late to be considered in preparing the final report. If the Assistant Deputy Chief of Staff
    does not submit additional comments by May 5, 2006, we will consider the comments
    received as the response to the final report.
    B.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) and the Air Force Deputy Chief of Staff
    (Installation and Logistics):

          a. Determine which fiscal year they can prove for existence, completeness,
    and valuation and use that fiscal year as their baseline for real property.

           b. Maintain an audit trail that will support the real property values
    reported on the financial statements.




                                            21
B.2. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) report the material weaknesses identified in
finding B of this report in their annual statement of assurance until the weaknesses
are corrected.




                                     22
Appendix A. Scope and Methodology
   Our objective was to determine whether internal controls provide reasonable assurance
   that material misstatements will not be made on the financial statements. Specifically,
   we assessed the control environment and control activities related to the acquisition,
   modifications, and deletions of real property assets. To accomplish these objectives, we
   reviewed and charted the flow of data from the real property data systems to the
   financial reporting system. (See Appendix D.) In addition, we followed up on
   recommendations made in the 1999 PricewaterhouseCoopers report, “DoD Real
   Property Asset Valuation, Phase IV, Real Property Financial Statement Reporting
   Process,” May 15, 2000. (See Appendix C.) The DoD 2005 financial statements
   reported $99.5 billion in real property assets. That total includes land at $10.5 billion;
   buildings, structures, and facilities at $68.6 billion; leasehold improvements at
   $176.5 million; and construction-in-progress at $20.3 billion.

   Scope Limitations. We performed this audit from November 2004 through
   August 2005 in accordance with generally accepted government auditing standards.
   We obtained and reviewed applicable guidance that prescribes policies and procedures
   to record and account for real property. Our scope was limited to the review of internal
   control procedures related to acquisition, additions, and deletions of real property. We
   conducted no substantive testing. We visited the 3 Military Departments headquarters
   management offices for real property, 13 field-level commands, 3 real property
   inventory reporting systems offices, of which one was located within its headquarters
   office, and the 2 construction agents, of which one is considered the headquarters
   office. In addition, we coordinated our review with the Government Accountability
   Office (GAO) and the military audit agencies. Locations visited during the audit are
   listed in the following table.

                                        Locations Visited

               Army                             Navy                        Air Force

     Assistant Chief of Staff       Naval Facility Engineering     Deputy Chief of Staff
     (Installation Management),     Command, Washington, DC        (Installations and Logistics),
     Arlington, Virginia*                                          Arlington, Virginia
                                    Kitsap, Washington
     U.S. Army Corps of                                            Arnold Air Station, Tennessee
                                    North Island, California
     Engineers, Washington, DC
                                                                   Gunter Air Force Base,
                                    Norfolk, Virginia
     Fort Bragg, North Carolina                                    Alabama*
                                    Patuxent River, Maryland
     Fort Hood, Texas                                              Hill Air Force Base, Utah
                                    Port Hueneme, California*
     Fort Lewis, Washington                                        McChord Air Force Base,
                                    Whidbey Island, Washington     Washington
     Fort Knox, Kentucky
                                    Camp Lejeune, North Carolina
   * Real Property Systems Office

   We evaluated procedures for reconciling real property account balances. We analyzed
   DD Form 1354s, Services’ real property systems inventory records, and other available


                                                 23
supporting documentation to identify FY 2004 and FY 2005 real property transactions.
We compared the costs and key dates on the DD Form 1354 with costs and key dates
recorded in the real property system.

Use of Computer-Processed Data. To achieve the audit objectives, we used
computer-processed data from the systems used to process real property records. We
compared real property computer data with supporting documentation. However, we
did not perform a formal reliability assessment on the data received from the property
record systems. For the Army, we used the Integrated Facilities System. For the Navy
we used the internet Navy Facilities Assets Data Store, and we used the Automated
Civil Engineers System–Real Property for the Air Force. A synopsis of these systems is
in Appendix D.

Government Accountability Office High-Risk Area. The GAO has identified several
high-risk areas in DoD. This report provides coverage of the Financial Management
high-risk area. Managing Federal real property is on the GAO’s 2005 High-Risk list,
Government-wide.




                                      24
Appendix B. Prior Coverage
    During the last 5 years, the DoD Inspector General (DoD IG), the Army Audit Agency,
    the Naval Audit Service, and the Air Force Audit Agency have issued multiple reports
    discussing real property. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports are on
    the Internet at https://www.aaa.army.mil/reports.htm. Unrestricted Naval Audit Service
    reports are on the Internet at http://www.hq.navy.mil/navalaudit/. Unrestricted Air
    Force Audit Agency reports are on the Internet at https://www.afaa.hq.af.mil.


DoD IG
    DoD IG Report No. D-2001-026, “Accuracy of the Government-Owned Contractor-
    Occupied Real Property in the Military Departments’ Real Property Databases,”
    December 22, 2000

    DoD IG Report No. D-2000-172, “Accuracy of the FY 1999 Additions, Deletions, and
    Modifications to the Military Departments’ Real Property Databases,” August 11, 2000


Army Audit Agency
    Army Audit Agency Report No. A-2004-0006-FFG, “General Fund Followup Issues,”
    October 29, 2003

    Army Audit Agency Report No. A-2002-0376-AMW, “Accounting for Real Property –
    Rock Island Arsenal,” May 22, 2002

    Army Audit Agency Report No. A-2002-0254-FFG, “Army’s General Fund Principal
    Financial Statements for FY 2001 – Accuracy of Real Property Data reported in the
    Real Property Systems,” April 22, 2002
    Army Audit Agency Report No. AA01-253, “Army’s General Fund Principal Financial
    Statements for Fiscal Year 2000 – Progress in Correcting Real Property Reporting and
    Internal control Weaknesses,” May 1, 2001

    Army Audit Agency Report No. AA00-275, “Army’s General Fund Principal Financial
    Statements for Fiscal Year 1999 – Updating Financial Information in Army Real
    Property Databases,” June 9, 2000


Naval Audit Service
    Naval Audit Service Report No. N2000-0038, “Department of the Navy Working
    Capital Fund Fiscal Year 1999 Real Property,” August 28, 2000


                                          25
    Naval Audit Service Report No. N2000-0033, “Department of the Navy Principal
    Statements for Fiscal Year 1999: Reporting of Real Property (Buildings, Structures, and
    Facilities),” July 31, 2000

    Naval Audit Service Report No. N2000-0018, “Department of the Navy Principal
    Statements for Fiscal Year 1999,” February 10, 2000


Air Force Audit Agency
    Air Force Audit Agency Report No. F2003-0002-FC4000, “Air Force Automated Civil
    Engineer System – Real Property Controls,” October 30, 2002

    Air Force Audit Agency Report No. F2002-0008-B05300, “Accounting for Air Force
    Real Property, Fiscal Year 2001,” September 18, 2002

    Air Force Audit Agency Report No. 00053006, “Accounting for Air Force Real
    Property, Fiscal Year 2000,” August 31, 2001




                                          26
Appendix C. Assessment of Implementation of
            Specific PricewaterhouseCoopers
            Recommendations
                                                                    Compliance
                                                             Army      Navy      Air Force
Were business rules applied correctly and                 Partial   Yes          No
consistently?
Does an audit trail exist to support the financial        Partial   Partial      No
statement amounts and is it maintained?
Does the baseline require further evaluation because      Yes       Yes          No
of changes in the business rules? Can the Military
Departments support the 1998 baseline?
Has a detailed real property handbook been                Yes       Yes          Yes
developed to ensure that PP&E values are
documented in sufficient detail to allow for consistent
application across reporting entities?
Have personnel received training to ensure that           Partial   Yes          Partial
Office of the Secretary of Defense policies are
correctly interpreted and consistently applied?
Has a comprehensive point-of-contact list been            Partial   Yes          Partial
developed, widely publicized, and updated
periodically?
Did the organizations develop a formal real property      Partial   Yes          Partial
accounting and financial management training
program?
Are the real property data within the primary Military    Partial   No           Yes
Department systems reconciled to the working capital
fund activities?
Does an interface exist for systems key to financial      Partial   Partial      Yes
reporting?
Do systems properly capture detailed capital              Partial   Yes          Yes
improvement information?
Do systems properly calculate depreciation expense        Partial   Yes          Yes
and does depreciation calculate on an individual asset
component basis prospectively from the point in time
that real property system capabilities are in place?
Are key controls associated with the real property        Partial   Partial      Partial
asset life cycle identified and tested? Are additional
controls defined and implemented where needed?




                                                   27
                                                                    Compliance
                                                            Army       Navy      Air Force
Are the pertinent regulations/policies on installation    Yes       Yes          Yes
real property management available in the real
property office?
Is a tracking system (voucher register) being used in     Yes       No           Yes
the real property office to track DD Form 1354s or
real estate transactions?
Were the DD Form 1354s accurately completed by            Partial   No           Partial
the project engineers and managers submitted to the
real property office within 10 working days of project
completion?
Was the DD Form 1354s capitalization data entered         Partial   No           Partial
into Real Property Inventory within 10 working
days?
Is all building usage properly identified on the DD       Partial   Partial      Partial
Form 1354 and recorded in the real property
inventory?
Do all facilities (to include land) have a dollar value   Partial   Partial      Partial
recorded and supported by appropriate
documentation?
Did the real property accountable officer verify line-    Partial   No           Partial
by-line that the DD Form 1354 data had been
accurately entered into the real property inventory?
Were disposed facilities removed from the real            Partial   Partial      Partial
property inventory within 10 working days after
disposal completion (disposal completion date, date
dropped from the inventory, and reportability code of
“D”)?
Do land records have separate facility numbers from       Yes       Yes          Yes
buildings, structures, and utilities?
Were annual reconciliations with tenant activities        Partial   Partial      Partial
performed to review facilities occupied by tenant,
facility usage, capital improvement costs that may
have been done by the tenant activity, unit
identification codes, and real property management
responsibility?
Has every facility in the real property inventory been    Partial   Partial      Partial
verified for accuracy by a physical survey?




                                                   28
Appendix D. Synopsis of Real Property Systems
Integrated Facilities System Synopsis
     The Army collects and manages its real property through the use of three main feeder
     systems. The three feeder systems are the Integrated Facilities System (IFS), the
     Planning Resource for Infrastructure Development and Evaluation System, and the
     Rental Facilities Management Information System. IFS is the system in which the
     Army installations input real property data. Because the Army deployed IFS prior to
     the implementation of the DoD Information Technology Security Certification and
     Accreditation Process, the system is considered a legacy system. Real property data is
     currently being submitted by 130 Army and National Guard installations through a file
     transfer protocol. The database resides in various Army installations across the country
     and overseas, but the Army is moving towards consolidating the servers located in the
     U.S. at Fort Lee, Virginia. The Army classifies the IFS information coming from the
     bases as either Non-Working Capital Fund or Working Capital Fund. This
     classification determines the way in which the data flows from the installations up to
     Army Headquarters. According to Army assertions, IFS does not comply with the
     Defense Finance and Accounting Service (DFAS) Blue Book or the Federal Financial
     Management Improvement Act of 1996. The Army is in the process of issuing an
     upgrade package to IFS called System Change Package–Number 16. Army personnel
     anticipate that by end of FY 2005 the upgrade package will make IFS compliant with
     the Chief Financial Officers Act of 1990. As part of this process, the Army Audit
     Agency is auditing IFS for Federal Financial Management Improvement Act of 1996
     compliance. The results of this audit will be available at the earliest by the fourth
     quarter of FY 2005. See Figure D-1 for systems flowchart.




                                            29
                                               IFS                          RFMIS
         PRIDE                                  at
         National                                                         at USACE
                                           installation                   (Capital Leases)
          Guard

                                    AWCF/DWCF             Non-WCF
             State and/or
              Federally
                owned


                     DPAS

                                                       QA
                                                     Process



                                                        HQEIS                          OACSIM


                                                                                       ACSIM
                            DCD
                                                                                       ASA(FM&C)
ACSIM      Assistant Chief of Staff for Installation
ASA (FM&C) Assistant Secretary of the Army (Financial Management and
               Comptroller)
                                                                                       Army Financial
AWCF/DWCF Army Working Capital Fund/Defense Working Capital Fund
HQEIS      Headquarters Executive Information System                                   Statements
IFS        Integrated Facilities System                                                (DDRS)
OACSIM     Office of Assistant Chief of Staff for Installation Management
DCD        DFAS Corporate Database
DDRS       Defense Departmental Reporting System
DPAS       Defense Property Accountability System
PRIDE      Planning Resources for Infrastructure Development and Evaluation
QA         Quality Assurance
RFMIS      Rental Facilities Management Information System
SCP-16     System Change Package–Number 16
WCF        Working Capital Fund



 Figure D-1. Flow of Army Real Property                                       Path of financial data now
                                                                              Path of inventory data
                                                                              Path of financial after SCP-16


                                                   30
Internet Navy Facility Assets Data Store Synopsis
     The Department of the Navy (including Marine Corps) maintains its real property
     inventory records in an Oracle-based, Web-served iNFADS. The records were
     migrated from the Navy Facility Assets Data Base in March 2001. Generally, the
     Engineering Field Divisions and activities enter changes directly into the iNFADS. If
     an activity does not have access to iNFADS, it can transmit the information to its
     Engineering Field Divisions for entry into iNFADS. The systems provide complete
     assets management and consist of 10 major components (Facility Assets, Activity,
     Category Code Directory, Shore Facilities Planning System, Military Construction
     Program, Facilities Information System Project, Security, Administration, Data
     Dictionary, and Integrated Priority List). The iNFADS system interfaces with the Navy
     Shore Installations Web site and mainframe applications such as the Facilities
     Information System.

     The upper right oval in figure D-2 denotes that interfaces with iNFADS of the Total
     Force Manpower Management System, the Naval Vessel Register, and the Aircraft
     Program Data File are currently under consideration.




                                           31
 AIS         Annual Inspection Summary
 APDF        Aircraft Program Data File
 BFR         Basic Facility Requirements
 FIS         Facilities Information System
 EPPG        Electronic Process Project Generator
 FRES        Facility Readiness Evaluation System
 IPL         Integrated Priority List
 MCP         Military Construction Programming
 MILCON      Military Construction
 NVR         Naval Vessel Register
 TFMMS       Total Force Manpower Management System


Figure D-2. Flow of Navy Real Property


                                             32
Automated Civil Engineer System – Real Property (ACES-RP)
Synopsis
    As a result of the Chief Financial Officers Act of 1990, the Air Force developed ACES-
    RP to be the original book of entry for all real property financial data. The development
    of the real property module would make ACES-RP the bridge between real property
    and the financial management world. The data in ACES-RP are used to produce the
    financial statements for general and working capital fund activities. ACES-RP is a
    Web-based system that can separately capture real property assets, and their associated
    capital improvements, and depreciates each component of an asset over its appropriate
    useful life. The system directly involved with interface between ACES-RP and the
    Defense Finance and Accounting Service in Denver for transfer of data is the GAFS-R.
    DFAS Denver is in charge of management, operations, and maintenance of GAFS-R.
    GAFS-R interfaces with Defense Departmental Reporting System – Audited Financial
    System (DDRS-AFS). DDRS-AFS is a DFAS system that generates the financial
    reports. The complete process from ACES-RP individual base-level activity to how
    system data rolls up in the Air Force Financial Statements and DoD Consolidated
    Financial Statements is shown in figure D-3.




                                           33
                                                                                             DoD
                                                                                         Consolidated
                                                                    OUSD                  Financial
                                                                                         Statements




                                                                                           Air Force
                                                                                         Consolidated
                                             DFAS                                          Financial
                                                                    SAF FM
                                          Headquarters                                    Statements




                                          DFAS Denver




                                              SSG




                                       ACES - Individual
     ACES                                                                      ACES
                                       Base-Level Activity
   GOCO Sites                                                                Air Guard




GOCO            Government-Owned, Contractor-Operated
OUSD            Office of the Under Secretary of Defense
SAF FM          Secretary of the Air Force (Financial Management)
SSG             Standards Systems Group

Figure D-3. Flow of Air Force Real Property



                                                     34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                             35
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform




                                           36
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       37
The Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments




                       38
39
40
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Delpha W. Martin
C. Kirk Winstead
Ronald L. Smith
Peter I. Lee
Lily Y. Chen
Wilfredo Romero-Torres
Calvin G. Hursey
Damarus M. Sanders
Catherine Bird
Erin S. Hart
Ann Thompson
Jillisa H. Milner
